under this BPA (order number 101819X223) began February 3, 2009, and was scheduled to end
August 31, 2010, and was funded by annual appropriations.

       The FWS contracting office decided to issue a new purchase order so that work for
Recovery Act program management services could be funded with Recovery Act funds rather
than annual appropriations. FWS drafted a solicitation for this requirement and posted it on
FedBizOps.gov. The Recovery Act directs agencies to use competitive procedures “to the
maximum extent practicable” for contracts funded under the Act. The solicitation met the
requirements for fair and open competition. On July 6, 2009, Alpha-Boulder was awarded
purchase order (PO) number 10181RM578.

       We identified a number of problems with these awards and their associated files:

       	 At the time of the award, pricing should have been established for the entire period of
          the BPA, from April 3, 2007, until March 14, 2012. The BPA award document states
          in section A.1 SCHEDULE OF ITEMS AND PRICES, “Prices effective from date of
          award of BPA through 14 March 2008” and provides the hourly rate for management
          consulting services and for facilities support services. Pricing for the remaining
          period of the BPA was not definitized. Therefore, calls 982108Y190 and
          982108Y206, as well as the call 1018119X223, issued on February 3, 2009, were
          issued without official rates in place. In addition, an increase in the hourly rate was
          approved on February 5, 2009, without documentation to support this change.

       	 In addition, amounts from calls 982108Y190 and 982108Y206 were deobligated.
          These calls were drafted as fixed-price calls. If deliverables were completed under a
          true fixed-price award, the contractor is due the entire agreed-upon price for those
          deliverables. If these calls were drafted as fixed-price, that would imply that
          deobligation is inappropriate unless the scopes of the calls were reduced by mutual
          agreement.

       	 The period of performance for the base period of the PO is July 7, 2009 to July 6,
          2010, which overlaps the period of performance for the last call under the BPA (both
          are in effect from July 7, 2009 to July 6, 2010). These two agreements, one funded
          under the Recovery Act and one funded under annual appropriations, exist for the
          same scope of work, by one individual, over the same time period. Since the scopes
          of work for both agreements were general in nature, there could be confusion over
          which agreement would be charged for the actual work performed.

       	 The PO did not contain “ceiling price” language as required by Federal Acquisition
          Regulation (FAR) 16.601(d)(2) and 16.602.

       	 The PO, in error, specifically excluded travel to and from the Portland, OR FWS
          contract office and had no line item for reimbursement of travel costs; however, FWS
          officials said that they intend for the contractor to travel to the Portland, OR office at
          the Government’s expense.


                                                                                                   2
    
          	 FWS did not appoint a contracting officer representative (COR)3 for the PO activity.
             Contracting personnel stated that they are unsure how the program personnel plan to
             monitor progress.

        FWS represented the BPA and the PO as firm-fixed-price vehicles. FWS officials stated
that "Firm fixed price is highly encouraged at all times especially under the Recovery Act. Time
and materials gives the contractor no incentive to work efficiently. Time and materials typically
does [sic] not make good business sense for our needs as we do not do research and development
contracting at this office." According to the FWS officials, they never considered using a time-
and-materials contract. We think, however, that in some cases, the contracting office actually
used a labor-hour vehicle, which is a variation of the time-and-materials contract and was
incorrect in representing the vehicle as fixed-price. The last call of the BPA and the PO included
a fixed hourly labor rate, and the language used in those awards is typical of labor-hour
agreements. We were informed that FWS intends to procure labor hours from Alpha-Boulder
based on assignments given to Alpha-Boulder by FWS engineers. Bureau staff indicated that the
2,000 hours requested in the PO were a general estimate because the exact hours needed were
unknown. The contractor would only be paid for hours worked. Given these circumstances, the
award is based on a labor-hour agreement and was not a fixed-price contract.

        The PO is reported on the Federal Procurement Data System-Next Generation as a fixed-
price contract; however, payment under a fixed-price contract would not be dependent on the
number of hours worked. A labor-hour contract would enable the bureau to pay only for the
hours worked. Non-fixed-price awards, such as labor-hour contracts, are required to be reported
by FAR 5.705(b) and Section 1554 of the Recovery Act.4 The FAR requires that an award notice
for a non-fixed-priced contract provide the rationale for using a non-fixed-price vehicle. Section
1554 requires reporting of any award that is not a fixed-price contract on the Recovery.gov
website. The Government incurs increased risk of performance with labor-hour vehicles, which
makes the need for a COR to monitor the contract even more critical. Furthermore, FAR
12.207(b)(1)(II)(A) requires that the contracting officer execute a determination and findings
(D&F) for a non-fixed-price contract. A D&F was never executed for this PO.

       The problem of misidentifying contract types is not confined to FWS; the Government
Accountability Office (GAO) issued a report on this subject.5 GAO noted that officials across
Government agencies mistakenly assumed that the fixed-labor rate in time-and-materials
contracts makes these fixed-price contracts. They also noted that D&Fs were rarely used for the
contracts they reviewed. GAO recommended that clarification be given regarding the use of
fixed-price and time-and-material contracts and that contracting officials receive guidance on the
requirements of FAR 12.207.



                                                               
   3
     A COR is an authorized representative of a contracting officer who performs certain contract administration
     functions, which help to ensure the Government and contractor comply with the contract’s terms and
     conditions.
   4
     The Recovery Act, Division A, Title XV, Subtitle D, Section 1554.
   5
     Minimal Compliance with New Safeguards for Time-and-Material Contracts for Commercial Services and
        Safeguards Have Not Been Applied to GSA Schedules Program. June 2009, GAO-09-579. 

                                                                                                                   3
    
        The FWS contracting office acknowledged the errors related to travel and the period of
performance. On July 20, 2009, the contracting office executed a modification on the last call,
which added funds to pay the last invoice for work under that call and ended the period of
performance effective July 3, 2009. On July 22, 2009, although FWS did not believe it was
required, FWS appointed a certified COR to the project. On August 13, 2009, the contracting
office issued a second modification that clarified the statement of work and added a travel line to
the PO, explaining that travel should be paid in accordance with the Joint Federal Travel
Regulations.

Recommendations

We recommend that FWS:

1.	 Issue guidance on the proper establishment of rates and associated non-labor costs for
    blanket purchase orders.

2.	 Modify the PO to accurately characterize the purchase order type and implement the
    publication requirements of FAR 5.705(b) and Section 1554 of the Recovery Act.

3.	 Document a D&F for the purchase order in accordance with FAR 12.207.

We recommend that the Department:

1.	 Review a sample of fixed-price agreements awarded by the bureaus to ensure that they are
    not time-and-material or labor-hour contracts and that required support is present in
    procurement files.

2.	 Communicate the difference between fixed-price and time-and-materials and labor-hour
    contracts to contract officials through training and/or in written form.

3.	 Ensure proper execution of D&Fs for time-and-material and labor-hour contracts.

   cc: Deputy Secretary, Department of the Interior 

       Assistant Secretary – Policy, Management and Budget 

       Director, Office of Acquisition and Property Management 

       Acting Director, Office of Financial Management 

       Acting Director, U. S. Fish and Wildlife Service 

       U. S. Fish and Wildlife Service Recovery Act Coordinator
       U. S. Fish and Wildlife Service Audit Liaison 

       Departmental GAO/OIG Audit Liaison 

       Audit Liaison, Office of the Secretary 





                                                                                                  4
    
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
